No. 20-1534
Ir,q

tlrb

Suprem e @ourt of tlle @nite! btuteg
ParntcN DoucHw,

ET AL.,

Petitioners,
V

Srarn Ennplovpns' AssocrATroN oF Nnw HeupsHmp, SEIU Local lgg4, CTW, CLC,
Respondent.

On Petition for Writ of Certiorari to the United
States Court of Appeals for the First Circuit

CERTIFICATE OF SERVICE
I, Lauren Noto, of lawful age, upon my oath state that I did, on the 13th day of Muy,
2021, serve an electronic copy of the RESPONDENT'S BRIEF IN OPPOSITION in
the above-entitled case to all parties required to be served, who consented to
electronic service only:

FRANK D. GARRISON
(Counsel of Record)

MILTON L. CHAPPELL
c/o NATIONAL RIGHT TO WORK LEGAL DEFENSE
FOUNDATION, INC.
8001 Braddock Road
Suite 600
Springfield, VA 22L60
(703) 321-8510
fdg@nrtw.org

I certifiz under penalty

of perjury

that the foregoing is true and correct.

Lauren Noto
Executed on the 13th day of May, 202I

